 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL




ANNUAL PERFORMANCE REPORT
         FY 2013
 ANNUAL PERFORMANCE PLAN
    FYS 2014 & 2015
U.S. Department of Energy, Office of Inspector General


 Table of Contents

                                                         Page

     Message from the Inspector General                   ii

     At a Glance: Performance Results for FY 2013         iii

     Overview                                             1

     Our Organization                                     2

     External Factors Challenging Our Organization        4

     Our Management Challenges                            5

     Measuring Our FY 2013 Performance                    6

     Our FY 2014 and FY 2015 Performance Plan             15

     Appendix A                                           18

         Audit Work Plan for FY 2014                      18

         Inspection Work Plan for FY 2014                 22

     Appendix B                                           23

         Investigative Work Plan for FY 2014              23




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                Page i
U.S. Department of Energy, Office of Inspector General


 Message from the Inspector General

     I am pleased to present the Department of Energy Office of Inspector General’s (OIG) combined
     Fiscal Year (FY) 2013 Annual Performance Report and FY’s 2014 and 2015 Annual Performance
     Plan. This report highlights our performance over the past year and establishes goals for future
     years.

     To ensure continued innovation and advancement, we
     recently developed a new organizational Strategic                   Our Vision:
     Plan. We consider strategic planning an integral part           To be a highly efficient
     of our oversight approach. These efforts to update our       organization that promotes
     Strategic Plan resulted in a revised vision and mission,          positive change.
     enhanced performance goals, and more focused
     performance measures. The new performance                           Our Mission:
     measures and targets are outlined in this report. We         To strengthen the integrity,
     believe these measures will lead to more effective and      economy, and efficiency of the
     efficient Inspector General oversight of Departmental        Department’s programs and
     operations in the coming years.                                      operations.

     During this reporting period, we commemorated the
     35th anniversary of the Inspector General Act, which
     was originally passed in the wake of Watergate to ensure integrity in Federal government
     operations. That same spirit continues to motivate and inspire our organization to focus on our
     mission to strengthen the integrity, economy and efficiency of the Department of Energy’s
     programs and operations.

     We look forward to continued collaboration with the Department’s senior management and
     program officials to advance the interests of the U.S. taxpayers.




                                                         Gregory H. Friedman
                                                         Inspector General




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                  Page ii
U.S. Department of Energy, Office of Inspector General


     At a Glance: Performance Results for FY 2013

     The OIG continues to make positive contributions to the Department’s mission-related
     priorities. Some highlights of our work in FY 2013 include:


            Total Reports Issued                                                                   124

               Audit Reports                                                                        70

               Inspection Reports                                                                   19

               Recovery Act Reports                                                                 35

            Funds Put to Better Use                                                     $101 million

            Dollars Recovered (Fines, Settlements, and Recoveries)                          $33 million

            Criminal Convictions                                                                    23

            Suspensions and Debarments                                                              51

            Civil or Administrative Actions                                                         37

            Hotline Complaints and Inquiries:

               Received                                                                          5,930

               Processed Immediately/Redirected/No Further Action                                5,580

               Processed for Further Review and Adjudicated                                        349




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                 Page iii
U.S. Department of Energy, Office of Inspector General


 Overview

     This report presents the goals, objectives, and measures for the OIG’s FY 2013 actual
     performance. During FY 2013, the OIG published a new Strategic Plan for FYs 2014-2019.
     Included in this report is the FYs 2014 and 2015 Performance Plan that contains the goals and
     measures to track our future performance. Below is an illustration of the goals through FY
     2013. Also presented are the OIG’s new goals effective in FY 2014.


          Current Performance Goals                              New Performance Goals
               through FY 2013                                     beginning FY 2014
            Promote Presidential reform                         Provide independent, accurate,
             initiatives, Secretarial mission                     timely, and balanced information
             priorities, and Congressional                        to the Department, Congress, and
             requests;                                            other key stakeholders in order to
                                                                  promote economy and efficiency in
            Improve economy and efficiency, and                  Department programs and
             reduce waste, fraud, and abuse                       operations.
             within the Department; and
                                                                 Work with the Department,
            Support the taxpayer.                                prosecutors and others to hold
                                                                  recipients and overseers of
                                                                  Department funds accountable for
                                                                  actions that result in fraud, waste,
                                                                  and/or abuse.

                                                                 Build and maintain an efficient and
                                                                  effective organization that fulfills
                                                                  its mission and maintains a highly
                                                                  qualified diverse workforce.




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                     Page 1
U.S. Department of Energy, Office of Inspector General


Our Organization

     The Office of Inspector General (OIG) is headquartered in Washington, DC and has 12 field
     offices located throughout the country. The organization is responsible for conducting audits,
     inspections and investigations and for receiving and acting upon allegations received through
     the OIG Hotline. The organization also has a corporate support function that addresses the
     administrative management of the organization.

     AUDITS are conducted on Department programs and operations.       Efforts are concentrated on
     providing reliable and credible financial and performance information and recommendations
     for improvements to senior management, Congress and the U.S. taxpayer. A risk-based process
     is used to identify areas for audit coverage based on known or emerging risks and the greatest
     vulnerabilities. This process ensures comprehensive coverage over Department organizations,
     programs and operations while meeting the Department’s evolving needs. Audit resources are
     also directed toward meeting statutory audit responsibilities in the financial and information
     technology areas.

     INSPECTIONS focus on allegations received from the OIG Hotline, special inquiries raised by
     Congress or senior Department officials, and performance issues. Efforts are concentrated on
     management reform within the Department by evaluating and providing recommendations to
     improve program performance. The Inspection function is designed to promptly address
     concerns and allegations received during the course of the year. Inspection priorities are based
     on the significance of the issue and the potential impact on Department programs and
     operations.

     INVESTIGATIONS address alleged violations of law that impact Department programs, operations,
     facilities and personnel. Priority is given to investigations of suspected violations of criminal
     and civil statutes, as well as serious administrative misconduct. Investigations are also used to
     identify opportunities for improving the economy and efficiency of Department programs and
     operations by identifying recommendations for positive change. Investigators work closely with
     Department of Justice prosecutors and other Federal, State, and local law enforcement
     organizations.

     THE HOTLINE facilitates the reporting and resolution of allegations involving Department
     programs and activities. Allegations are received from Department employees, contractors and
     the general public. In addition, whistleblower disclosures made by employees and contractors
     help root out fraud, waste, and abuse, and protect public health and safety. The OIG
     Whistleblower Ombudsman educates Department employees about prohibitions on retaliation
     for whistle blowing, as well as employees’ rights and remedies if anyone retaliates against them
     for making a whistleblower disclosure.



Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                   Page 2
U.S. Department of Energy, Office of Inspector General

     MANAGEMENT AND ADMINISTRATION directs the development, coordination, and execution of
     overall OIG management and administrative policy and planning. This responsibility includes
     directing the OIG’s strategic planning process, financial management activities, personnel
     management and security programs, administrative support services, and information
     technology programs.




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                   Page 3
U.S. Department of Energy, Office of Inspector General


 External Factors Challenging Our Organization

     Various external factors impact the OIG’s ability to meet its performance goals. These factors
     include the following:

            Hotline allegation reviews significantly impact planned work. The number of Hotline
             allegations has increased 524% from FY 2008 to FY 2013.

            Congressionally mandated work demands a relatively large portion of OIG resources.
             This mandated work includes, among other things, work required by the Federal
             Information Security Management Act of 2002, the Improper Payments Elimination and
             Recovery Act of 2010, the Whistleblower Protection Enhancement Act of 2012, and the
             recently passed Government Charge Card Abuse Prevention Act of 2012.

 Our Management Challenges

     To address our inadequate audit coverage of management contractors, we planned to increase
     audit staffing to authorized levels by September 30, 2012. We successfully met this milestone.
     In FY 2013, we increased our audit coverage of contracts, grants and other procurements;
     however, it is still not optimal. Our limitation in this area can be linked to three primary causes:

         •   The Department’s diverse and broad mission that continues to expand;
         •   The Department’s significant operational management challenges; and
         •   OIG’s full-time equivalent (FTE) ceiling is insufficient to meet operational needs.

     The Department’s mission to ensure security and prosperity by addressing energy,
     environmental and nuclear challenges is one of the broadest in the Federal Government. The
     Department mission continues to expand as it takes on new guaranteed loan programs to
     promote renewable energy. In addition, the mission becomes more complex as the nation’s
     nuclear stockpile continues to age. Finally, the Department is currently facing significant
     operational challenges as a result of duplicative functions that exist throughout the
     organization. These additional challenges create additional oversight responsibilities.
     However, the OIG FTE ceiling has remained constant at a level of 279 over the last 5 years. In
     order to meet the additional oversight responsibilities and maintain current operational levels,
     the OIG FTE ceiling needs to be increased. In the interim, we use a risk-based approach to focus
     our finite resources on those areas within the Department that have the greatest impact on the
     security and prosperity of the country. As a result, we are not always able to provide optimal
     coverage of contracts, grants and other procurements.




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                      Page 4
U.S. Department of Energy, Office of Inspector General


 Measuring Our FY 2013 Performance

     The OIG measures its performance against long-term and annual goals set forth in OIG planning
     documents. During this reporting period, the OIG met or exceeded its FY 2013 performance
     goals. The following is an illustration of FY 2013 targets and actual performance:

                                                    Goal 1

                              Promote Presidential reform initiatives,
                     Secretarial mission priorities and Congressional requests.

     Objective 1
     Conduct reviews seeking positive change in the Department relating to the implementation of
     Presidential reform initiatives, the Secretary’s mission priorities, and Congressional requests.

     Objective Leader – Deputy Inspector General for Audits and Inspections

                                                               FY   FY   FY   FY   FY
       Performance Measures                                   2009 2010 2011 2012 2013
       1a. Complete reviews that address Presidential,        Target:   Target:   Target:   Target:   Target:
           Secretarial, and OIG initiatives, priorities,
           and/or challenges as identified in FY 2013.          N/A      N/A       N/A       75%       75%

                                                              Actual:   Actual:   Actual:   Actual:   Actual:

                                                                N/A      N/A       N/A       86%      87.5%

       1b. Conduct inspections that address safety or         Target:   Target:   Target:   Target:   Target:
           security-related topics.
                                                               50%       30%       30%       30%       30%

                                                              Actual:   Actual:   Actual:   Actual:   Actual:

                                                               62.5%     45%       60%       50%       53%




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                         Page 5
U.S. Department of Energy, Office of Inspector General


                                                    Goal 2
              Improve economy and efficiency, and reduce waste, fraud, and abuse
                                  within the Department.

     Objective 2
     Concentrate OIG efforts on issues that have the greatest impact and usefulness to the
     Department.

     Objective Leader – Deputy Inspector General for Audits and Inspections

                                                              FY   FY   FY   FY   FY
       Performance Measures                                  2009 2010 2011 2012 2013
       2a. Ensure that performance reviews include an        Target:   Target:   Target:   Target:   Target:
           analysis of program accomplishments and the
           use of metrics to measure results.                100%      100%      100%      100%      100%

                                                             Actual:   Actual:   Actual:   Actual:   Actual:

                                                             100%      100%      100%      100%      100%

       2b. Ensure that performance audits include            Target:   Target:   Target:   Target:   Target:
           recommendations leading to demonstrable
           cost savings, program efficiencies, and/or         57%       57%       57%       57%       75%
           funds put to better use.
                                                             Actual:   Actual:   Actual:   Actual:   Actual:

                                                              78%       86%       88%       97%       97%

       2c. Complete follow-up reviews annually to            Target:   Target:   Target:   Target:   Target:
           determine the status and efficacy of corrective
           actions.                                            5         5         5         5         5

                                                             Actual:   Actual:   Actual:   Actual:   Actual:

                                                               8         6         10        10        15




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                           Page 6
U.S. Department of Energy, Office of Inspector General


                                                           FY   FY   FY   FY   FY
       Performance Measures                               2009 2010 2011 2012 2013
       2d. By June 30, 2013, complete an annual risk-     Target:   Target:   Target:   Target:   Target:
           based programmatic assessment that
           considers OIG institutional knowledge; past     N/A      6/2010    6/2011    6/2012    6/2013
           program performance; funding levels;
           Presidential, Secretarial, and congressional
           concerns; and input from Department program    Actual:   Actual:   Actual:   Actual:   Actual:
           managers.
                                                           N/A      6/2010    6/2011    5/2012    4/2013

       2e. Ensure planned performance audits and          Target:   Target:   Target:   Target:   Target:
           inspections address high-risk areas as
           identified in the OIG annual risk-based         80%       80%       80%       80%       80%
           programmatic assessments.
                                                          Actual:   Actual:   Actual:   Actual:   Actual:

                                                           90%       87%       83%      88.5%      88%




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                      Page 7
U.S. Department of Energy, Office of Inspector General


     Objective 3
     Provide timely information to the Department so that prompt action can be taken to improve
     program performance.

     Objective Leaders – Deputy Inspector General for Audits and Inspections
                         Deputy Inspector General for Investigations

                                                                  FY   FY   FY   FY   FY
       Performance Measures                                      2009 2010 2011 2012 2013
       3a. Issue audit and inspection reports no later           Target:   Target:   Target:   Target:   Target:
           than 60 days following receipt of management
           comments.                                              80%       80%       80%       80%       80%

                                                                 Actual:   Actual:   Actual:   Actual:   Actual:

                                                                  83%      100%       93%       84%      97.5%

       3b. Issue Investigative Reports to Management in          Target:   Target:   Target:   Target:   Target:
           a timely manner once criminal, civil, and
           administrative investigative activity is finalized.   55 days 50 days 48 days 47 days 46 days

                                                                 Actual:   Actual:   Actual:   Actual:   Actual:

                                                                 23 days 10 days 17 days 33 days 22 days




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                             Page 8
U.S. Department of Energy, Office of Inspector General


     Objective 4
     Strengthen financial management and cyber security through completion of mandatory reviews
     in accordance with OMB and other applicable requirements.

     Objective Leader – Deputy Inspector General for Audits and Inspections

                                                                      FY        FY        FY        FY        FY
      Performance Measures                                           2009      2010      2011      2012      2013
      4a. Complete by the established due date, the                  Target:   Target:   Target:   Target:   Target:
         Department’s Consolidated Financial
         Statement audits to determine whether the                   11/15/09 11/15/10 11/15/11 11/15/12     11/15/13
         financial statements are free from material
         misstatement.                                               Actual:   Actual:   Actual:   Actual:   Actual:

                                                                     11/15/09 11/12/10 11/15/11 11/15/12     12/12/13*

      4b. Complete annually, by the established due                  Target:   Target:   Target:   Target:   Target:
         date, the Department’s classified and
         unclassified information security system                    11/18/09 11/15/10 11/15/11 11/15/12     11/15/13
         program reviews in accordance with the
         Federal Information Security Management                     Actual:   Actual:   Actual:   Actual:   Actual:
         Act of 2002.
                                                                     10/2009   10/2010   10/2011   10/2012   10/2013

      4c. Initiate “Statement of Costs Incurred and                  Target:   Target:   Target:   Target:   Target:
          Claimed” audits annually to assess internal
          controls over costs claimed by the                           10        10        10        10        10
          Department’s major contractors.
                                                                     Actual:   Actual:   Actual:   Actual:   Actual:

                                                                       10        9         13        13        13




     *Due to the FY 2014 Federal government shutdown the Office of Management and Budget revised the due date
     for all financial statement audits from 11/15/13 to 12/15/13.




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                                 Page 9
U.S. Department of Energy, Office of Inspector General


     Objective 5
     Concentrate investigative efforts on allegations of criminal and civil violations of law that
     adversely impact major Department programs and operations, with emphasis on maximizing
     the recovery of public resources and deterring future wrongdoing.

     Objective Leader – Deputy Inspector General for Investigations

                                                                FY   FY   FY   FY   FY
       Performance Measures                                    2009 2010 2011 2012 2013
       5a. Achieve an annual acceptance rate for cases         Target:   Target:   Target:   Target:   Target:
           presented for prosecutorial consideration.
                                                                72%       72%       74%       74%       74%


                                                               Actual:   Actual:   Actual:   Actual:   Actual:

                                                                89%       90%       96%       95%       94%

       5b. Ensure all cases opened focus on key areas of       Target:   Target:   Target:   Target:   Target:
           Department vulnerability, specifically contract
           and grant fraud, environmental, safety, and          75%       75%       75%       75%       75%
           health violations, issues impacting the integrity
           of government officials, or technology crimes.      Actual:   Actual:   Actual:   Actual:   Actual:

                                                                77%       77%       88%       91%       83%




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                          Page 10
U.S. Department of Energy, Office of Inspector General


     Objective 6
     Coordinate with other law enforcement agencies to establish effective networks in order to
     identify areas that are most vulnerable to waste, fraud, and abuse.

     Objective Leader – Deputy Inspector General for Investigations

                                                             FY   FY   FY   FY   FY
       Performance Measures                                 2009 2010 2011 2012 2013
       6a. Ensure all cases opened were joint agency/task   Target:   Target:   Target:   Target:   Target:
           force investigations with external law
           enforcement agencies, such as the Federal         25%       25%       25%       26%       26%
           Bureau of Investigation and other OIGs.
                                                            Actual:   Actual:   Actual:   Actual:   Actual:

                                                             29%       34%       42%       40%       45%



     Objective 7
     Heighten awareness of potential fraud among internal and external customers.

     Objective Leader – Deputy Inspector General for Investigations

                                                             FY   FY   FY   FY   FY
       Performance Measures                                 2009 2010 2011 2012 2013
       7a. Provide fraud awareness briefings annually to    Target:   Target:   Target:   Target:   Target:
           Department and contractor employees and
           managers.                                          28        35        40        42        44

                                                            Actual:   Actual:   Actual:   Actual:   Actual:

                                                              84        95        86        79        69




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                       Page 11
U.S. Department of Energy, Office of Inspector General


                                                    Goal 3

                                            Support the taxpayer.

     Objective 8
     Provide the Department and the public with an effective and efficient mechanism to report
     waste, fraud, and abuse.

     Objective Leaders – Deputy Inspector General for Investigations
                         Counsel to the Inspector General

                                                              FY   FY   FY   FY   FY
       Performance Measures                                  2009 2010 2011 2012 2013
       8a. Timely analyze and predicate Hotline              Target:   Target:   Target:   Target:   Target:
           complaints from receipt of allegations.
                                                             90% in    90% in    90% in    6 days    6 days
                                                             7 days    7 days    7 days    or less   or less

                                                             Actual:   Actual:   Actual:   Actual:   Actual:

                                                             99% in    99% in    95% in    3 days    2 days
                                                             7 days    7 days    7 days

       8b. Timely refer Hotline complaints to the            Target:   Target:   Target:   Target:   Target:
           Department or other agency management
           following a referral decision.                    90% in 90% in 90% in 16 days 16 days
                                                             14 days 14 days 14 days or less or less

                                                             Actual:   Actual:   Actual:   Actual:   Actual:

                                                             98% in 59% in 17% in 17 days 11 days
                                                             14 days 14 days 14 days

       8c. Meet statutory Whistleblower Retaliation          Target:   Target:   Target:   Target:   Target:
           Investigation requirements.
                                                              100%      N/A      100%      100%      100%

                                                             Actual:   Actual:   Actual:   Actual:   Actual:

                                                              100%      N/A      100%      100%      100%




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                        Page 12
U.S. Department of Energy, Office of Inspector General


     Objective 9
     Make the public aware of OIG reports.

     Objective Leader – Deputy Inspector General for Management and Administration

                                                                FY   FY   FY FY     FY
       Performance Measures                                    2009 2010 2011 2012 2013
       9a. Ensure that all OIG public performance reports      Target:   Target:   Target: Target:     Target:
           are posted to the internet, on average, within
           5 working days of submission to the                  100%       100%    100%      100%      100%
           Department, unless otherwise specified by the
           Inspector General.                                  Actual:   Actual:   Actual: Actual:     Actual:

                                                                100%       100%    100%      100%      100%


     Objective 10

     Provide a structure for ensuring a skilled and efficient workforce.

     Objective Leaders – Deputy Inspector General for Audits and Inspections
                         Deputy Inspector General for Investigations
                         Deputy Inspector General for Management and Administration

                                                                FY   FY   FY   FY   FY
       Performance Measures                                    2009 2010 2011 2012 2013
       10a. Ensure that all auditors meet the training         Target:   Target:   Target:   Target:   Target:
           requirements as specified by generally
           accepted Government Auditing Standards and
                                                                100%       100%    100%      100%      100%
           that all inspectors meet the training
           requirements as specified by the Council of
           the Inspectors General on Integrity and             Actual:   Actual:   Actual:   Actual:   Actual:
           Efficiency for Inspection and Evaluation.
                                                                100%       100%    100%      100%      100%

       10b. Ensure that all investigators meet the training    Target:   Target:   Target:   Target:   Target:
           requirements as specified by Federal law
           enforcement and other related investigative          100%       100%    100%      100%      100%
           standards.
                                                               Actual:   Actual:   Actual:   Actual:   Actual:

                                                                100%       100%    100%      100%      100%




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                          Page 13
U.S. Department of Energy, Office of Inspector General


     Our FYs 2014 and 2015 Performance Plan

     Our work is important to the Department‘s success in fulfilling its Strategic Plan. It is imperative
     that the OIG ensure its resources and activities cover the issues and concerns most critical to
     the Department. This Performance Plan identifies the OIG’s performance targets for FYs 2014
     and 2015 that will help the OIG assist the Department in identifying and taking corrective action
     to improve areas most vulnerable to waste, fraud, and mismanagement.

     During FY 2013, the OIG published a new Strategic Plan for FYs 2014-2019. The concept for the
     updated Strategic Plan was to focus on those issues most important to our success while
     developing more robust performance measures better aligned with our vision and mission.

                                                    Goal 1

     Provide independent, accurate, timely, and balanced information to the
     Department, Congress and other key stakeholders in order to promote economy
     and efficiency in Department programs and operations.

     Goal Leader: Deputy Inspector General for Audits and Inspections

                                                  FY FY
     Performance Measures                         2014 2015
     1.1 Percentage of reports issued             Target: Target:
         with recommendations/
         suggestions.                             40%     40%

     1.2 Percentage of                            Target: Target:
         recommendations accepted.
                                                  85%     85%

     1.3 Percentage of final reports              Target: Target:
         issued within 60 days of receipt
                                                  80%     80%
         of management comments.




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                     Page 14
U.S. Department of Energy, Office of Inspector General


                                                    Goal 2

     Work with the Department, prosecutors and others to hold recipients and
     overseers of Department funds accountable for actions that result in fraud, waste,
     and/or abuse.

     Goal Leader: Deputy Inspector General for Investigations

                                                      FY   FY
     Performance Measures                            2014 2015
     2.1 Number of fraud awareness                  Target:    Target:
         briefings conducted to educate
         and inform Department                           50      50
         employees, contractors, and
         fund recipients.

     2.2 Average number of days to issue            Target:    Target:
         an Investigative Report to
         Management.                                     45      44

     2.3 Percentage of cases presented              Target:    Target:
         for prosecutorial consideration
         that are accepted for further                   76%    76%
         action.

     2.4 Average number of days by                  Target:    Target:
         which hotline complaints are
         referred to responsible entities                16      16
         following a disposition decision.




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                    Page 15
U.S. Department of Energy, Office of Inspector General


                                                    Goal 3

     Build and maintain an efficient and effective organization that fulfills its
     mission and maintains a highly qualified diverse workforce.

     Goal Leader: Deputy Inspector General for Management and Administration

                                                          FY FY
     Performance Measures                                2014 2015
     3.1 Percentage of required                          Target: Target:
         employee performance
         management system actions                        90%     91%

         conducted within prescribed
         timeframes.

     3.2 Percentage of Individual                        Target: Target:
         Development Plans established
         within prescribed timeframes.                    92%     93%

     3.3 Percentage of employees                         Target: Target:
         completing mandatory training
         within prescribed timeframes.                    97%     98%

     3.4 A positive return for each tax                  Target: Target:
         dollar invested in OIG activities.
                                                         $3.10    $3.15




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                               Page 16
U.S. Department of Energy, Office of Inspector General


 Appendix A

                                    Audit Work Plan for FY 2014

     Eastern Audits Division

        Follow-up of the Reindustrialization Program at East Tennessee Technology Park
        Audit of the Department’s Management of High-Risk Property
        Audit of the Department’s Efforts to Reduce Mercury Contamination at the Y-12 National
         Security Complex
        Non-conforming Equipment and Parts at the Savannah River Site
        Audit of the Department’s Facility Contractors’ Use of No Bid Subcontracts
        Decontamination and Decommissioning Activities at the Oak Ridge National Laboratory
        The Department’s Audit Resolution and Follow-up Process
        Legacy Management Activities at Selected Sites
        Department’s Contract Awards Made to Alaska Native Corporation
        Readiness of the Saltstone Disposal Facility at the Savannah River Site
        Acquisition and Use of Helium-3 by Department of Energy Programs
        Follow-up Audit of the Department’s Management of Contractor Fines, Penalties and Legal
         Costs
        Transportation of Hazardous Materials
        Select Legacy Material Stored at the Oak Ridge Reservation
        Waste Solidification Building at the Savannah River Site
        Portsmouth Gaseous Diffusion Plant Decontamination and Decommissioning Project
        Department’s Depleted Uranium Hexafluoride Conversion
        Defense Waste Processing Facility Glass-Melter Fabrication Project
        Salt Waste Processing Facility Construction Project
        Management of the FutureGen Cooperative Agreement
        Environmental Management’s Consolidated Business Center
        Office of Science Contractor Governance
        Department’s Management of General Support Services Costs

     Central Audits Division

        Office of Energy Efficiency and Renewable Energy's Procurement
        Office of Science's Management of Research Projects
        Permitting Processes at the Federal Energy Regulatory Commission
        Department of Energy's Implementation of Strategic Sourcing Initiatives




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                              Page 17
U.S. Department of Energy, Office of Inspector General


     Central Audits Division (con’t)

        Argonne National Laboratory's Infrastructure Projects
        Office of Fossil Energy's Regional Carbon Sequestration Partnerships
        National Energy Technology Laboratory Risk Management System
        Small Business Phase III Xlerator Program
        Advanced Photon Source Upgrades
        Office of Energy Efficiency and Renewable Energy's Wind Program
        SunShot Photovoltaic Manufacturing Initiative Subcontracts
        On-Site Energy Production Plant Savings
        A1B Naval Reactor Production
        The Department of Energy's Sustainability Efforts
        The Department of Energy's Science, Technology, Engineering, and Mathematics Programs
        Department of Energy's Management of Contaminated Non-Environmental Management
         Facilities
        Bonneville Power Administration Procurement
        Review of Select At-Risk Loan Guarantee Projects

     Western Audits Division

        Corrective Action Program at the Waste Treatment Plant
        National Nuclear Security Administration Laboratory Directed Research and Development
        Follow up on Security at the Y-12 National Security Complex
        B-61 Life Extension Program
        Management of the Weapons Engineering Tritium Facility at the Los Alamos National
         Laboratory
        Small Modular Reactor Program
        Suspect/Counterfeit Parts for Safety Systems at Hanford
        Audit of the National Ignition Facility
        Corrective Action Systems at the Pantex Plant
        Audit of Second Line of Defense Nonproliferation Program
        Lithium Operations at the Y-12 National Security Complex
        Audit of Accelerated Vault Workoff Project at the Los Alamos National Laboratory
        Hanford Site Security
        Management of the Remote Handled Low-Level Waste Disposal Facility
        The W78/W88-1 Life Extension Program
        Management of the Advanced Recovery & Integrated Extraction System at the Los Alamos
         National Laboratory
        Follow up Audit of Sandia Labs Nuclear Weapons Safety Program




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                            Page 18
U.S. Department of Energy, Office of Inspector General


     Western Audits Division (con’t)
        Security at the Nevada National Security Site
        Management of the Idaho Comprehensive Environmental Response, Compensation and
         Liability Act (CERCLA) Disposal Facility
        Capabilities-Based Facilities and Infrastructure Projects at Y-12 National Security Complex
        NNSA Contractor’s Health and Post Retirement Benefits
        Hanford River Corridor Project Cleanup Verification
        Follow up Audit of Heavy Water Inventory
        NNSA’s Neutron Generator Replacement Project
        Follow up Audit of Nanoscale Materials Safety
        Implementation of the Agreements for Commercialization of Technology
        New Facility Construction Management and Acceptance
        Management of Newly Generated Transuranic Waste
        Long Lead Procurements at the Office of River Protection
        Management of Major Projects at the SLAC National Accelerator Laboratory
        NNSA Integration of Concurrent Nuclear Weapon Life Extension Programs
        Management of Type-B Specialized Containers
        Health Services Contracts at the Hanford Site
        Audit of the Y-12 National Security Complex/Pantex Plant Consolidation

     Technology Audits

        The Department’s Cyber Security Continuous Monitoring Process
        The Department of Energy’s Information Technology Modernization Efforts
        Management of the Department’s High Performance Computing Capabilities
        Management of the Department of Energy’s Cyber Security Program for National Security
         Systems
        Implementation of Cyber Security Reliability Standards by the Power Marketing
         Administrations
        The Department’s Management of Cloud Computing Activities
        Management of Information Technology Contracts and Oversight at the Hanford Site
        Follow-up Audit on Protection of the Department of Energy’s Unclassified Sensitive
         Electronic Information
        Audit of the Department’s iPortal System
        Audit of Information Technology Expenditures at Selected Sites
        The Department of Energy's Implementation of the Federal Information Security
         Management Act
        Federal Energy Regulatory Commission’s Implementation of the Federal Information
         Security Management Act




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                   Page 19
U.S. Department of Energy, Office of Inspector General


     Statement of Costs Incurred and Claimed (SCIC)

        Sandia National Laboratories- Lockheed Martin 2013
        Los Alamos National Laboratory- Los Alamos National Security 2013
        Lawrence Livermore National Laboratory- Lawrence Livermore National Security LLC 2013
        Oak Ridge National Laboratory- UT Battelle 2013
        Savannah River Site- Savannah River Nuclear Solutions 2010-2012
        Oak Ridge Y-12- Babcock & Wilcox Y-12 LLC 2013
        Naval Reactors- Bechtel Marine Propulsion Corporation 2013
        Pacific Northwest National Laboratory- Battelle Memorial Institute 2013
        Idaho National Laboratory- Battelle Energy Alliance LLC 2013
        Lawrence Berkeley National Laboratory- Regents of University of California 2012
        Waste Isolation Pilot Plant- Washington TRU Solutions 2012
        Argonne National Laboratory - UChicago- Argonne 2010-2013
        Princeton Plasma Physics Laboratory- Princeton University 2011-2012
        East Tennessee Technology Park- Bechtel Jacobs 2011

     Government Management Reform Act (GMRA)

        Department of Energy’s Consolidated Financial Statement Audit Fiscal Year 2014
        Federal Energy Regulatory Commission’s Financial Statement Audit Fiscal Year 2014
        Southwestern Power Administration Financial Statement Audit Fiscal Year 2014
        Nuclear Waste Fund Fiscal Year 2014
        Information Technology Management Letter Fiscal Year 2014
        Financial Management Letter Fiscal Year 2014




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                             Page 20
U.S. Department of Energy, Office of Inspector General


                                Inspection Work Plan for FY 2014

     Eastern Inspections Region

        Safety Risks to Workers and the Environment at a Selected Department Site
        Department Lockout/Tagout Processes at Selected Department Sites
        Protection of Classified Information at Offsite Department Facilities
        Review of the Department's Management of Contract Transition at a Department Site
        Severance Payments at a Selected Department Site
        Follow-up Inspection on Ammunition Control
        Review of a Department Site's Emergency Response Capability
        Review of Radio Frequency Identification Device Technology at a Selected Department Site
        Follow-up Inspection of Chemical Safety Protocols at a Department Site
        Review of Aviation Operational Readiness at a Department Site
        Review of Purchase Card Administration at the Department
        Review of the Department's Recruitment, Relocation, and Retention Incentives at Selected
         Sites
        Review of the Office of Economic Impact and Diversity's Implementation of Title IX
         Compliance Reviews

     Western Inspections Region

        Review of Corrective Actions Concerning Technetium-99 Incident at the Los Alamos
         National Laboratory
        Nuclear Weapons Quality Control/Succession Planning at a Selected Site
        Inventory of Government Firearms at a Selected Site
        Review Security of National Nuclear Security Administration Aviation Assets
        Safety at the Liquid Waste Treatment Facility at a Selected Site
        Use of Waste Characterization Strategy at Selected Department Site
        Follow-up Inspection on Joint Technical Operations Team
        Follow-up Inspection on Human Reliability Program at a Selected Department Site
        Review of Excess Property at a Selected Department Site
        Disposition of Licensing and Royalty Income at a Selected Department Site




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                               Page 21
U.S. Department of Energy, Office of Inspector General


 Appendix B

                       Investigative Work Plan Priorities for FY 2014

     Contract and Grant Fraud
     A majority of the Department’s budget is expended on contracts and grants; therefore, the
     opportunity for fraud to occur or exist within various Department programs is significant. Given
     the continuing potential for significant fraud, to include the Department’s Loan Guarantee
     Program, in FY 2014 Investigations will continue to: (1) expand fraud awareness briefings
     throughout the Department, including NNSA; (2) prioritize contract and grant fraud
     investigations, placing emphasis on cases with a potential high dollar recovery to the
     Department; (3) coordinate and pursue leads referred by the OIG Office of Audits and
     Inspections; and (4) proactively identify and pursue contract and grant fraud investigations.

     Environment, Safety, and Health (ES&H)
     The Department’s program for cleaning up the environmental contamination caused by nuclear
     weapons research, production and testing is estimated to cost over $250 billion over the next
     several decades. The OIG has identified environmental cleanup as a Department Management
     Challenge that is likely to persist well into the future. In FY 2014, Investigations will: (1) pursue
     investigations involving potential ES&H violations; (2) continue liaison efforts with ES&H
     contacts in the Department, NNSA, and other Government agencies; and (3) provide ES&H
     awareness briefings throughout the Department complex.

     Issues Impacting the Integrity of Government Officials

     Government officials have a responsibility to maintain the public's trust and confidence in the
     integrity of the Federal Government programs and operations. In FY 2014, based on
     information received through the OIG Hotline and other sources, the OIG Office of
     Investigations will continue to work with the Department of Justice to address allegations of
     criminal misconduct and ethical lapses on the part of government officials. The Office of
     Investigations will also continue to investigate related activities that may have resulted in fraud,
     waste, abuse and mismanagement.

     Technology Crimes
     Information technology, another of the Department’s major issue areas, received a significant
     amount of Office of Investigations’ resources and attention during FY 2013. The Office of
     Investigations’ Technology Crimes Section (TCS) is staffed by investigators with the specialized
     skills necessary to proactively and reactively investigate the expanding number of complex



Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                      Page 22
U.S. Department of Energy, Office of Inspector General

     technology crimes that are allegedly occurring within many of the Department’s programs. TCS
     further strengthens the Office of Investigations’ support to the Department, including NNSA, in
     detecting, preventing and investigating illegal network intrusions. During FY 2014, TCS will: (1)
     continue to proactively support fraud investigations through consultations and forensic media
     analysis; (2) investigate incidents of technology crimes and non-compliance with applicable
     regulations involving protection of the information infrastructure throughout the Department;
     (3) extend the Office of Investigations’ role in technology incident response and investigations
     in the Department; and (4) provide technology crimes awareness briefings throughout the
     Department complex.




Annual Performance Report FY 2013
Annual Performance Plan FYs 2014 & 2015
                                                                                                  Page 23
